 

 

    U.S. ENVIRONMENTAL PROTECTION AGENCY 

    OFFICE OF INSPECTOR GENERAL 
 

 



    Fiscal Year 2011
    Federal Information Security
    Management Act Report
    Status of EPA’s Computer Security
    Program

    Report No. 12-P-0062                November 9, 2011
Report Contributors:                               Rudolph M. Brevard
                                                   Cheryl Reid
                                                   Scott Sammons
                                                   Christina Nelson
                                                   Kyle Denning




Abbreviations

APT           Advanced Persistent Threat
BIA           Business Impact Analysis
CA            Certification, Accreditation, and Security Assessments
CIO           Chief Information Officer
EPA           U.S. Environmental Protection Agency
FDCC          Federal Desktop Core Configuration
FIPS          Federal Information Processing Standards
FISMA         Federal Information Security Management Act
IT            Information Technology
MOU           Memorandum of Understanding
NIST          National Institute of Standards and Technology
OCFO          Office of the Chief Financial Officer
OEI           Office of Environmental Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
PIV           Personal Identity Verification
PM            Program Management
POA&M         Plan of Action & Milestones
RCRAInfo      Resource Conservation and Recovery Act Information System
SP            Special Publication
TT&E          Training, Testing, and Exercises
US-CERT       United States Computer Emergency Readiness Team
USGCB         United States Government Configuration Baseline




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                            THE INSPECTOR GENERAL




                                       November 9, 2011

MEMORANDUM

SUBJECT:      Fiscal Year 2011 Federal Information Security Management Act Report:
              Status of EPA’s Computer Security Program
              Report No. 12-P-0062


FROM:         Arthur A. Elkins, Jr.
              Inspector General

TO:           Lisa P. Jackson
              Administrator


Attached is the Office of Inspector General’s (OIG’s) Fiscal Year 2011 Federal Information
Security Management Act (FISMA) Reporting Template, as prescribed by the Office of
Management and Budget (OMB). We performed this review in accordance with generally
accepted government auditing standards. These standards require the team to plan and perform
the review to obtain sufficient and appropriate evidence to provide a reasonable basis for the
findings and conclusions based on the objectives of the review.

We believe the evidence obtained provides a reasonable basis for our findings and conclusions,
and in all material respects, meets the FISMA reporting requirements prescribed by OMB. In
accordance with OMB reporting instructions, I am forwarding this report to you for submission,
along with the Agency’s required information, to the Director of OMB.

The audit work performed during the FISMA review disclosed that the Agency needs to make
significant improvements in the following programs: (1) Risk Management, (2) Plans of Action
& Milestones, and (3) Continuous Monitoring Management.

In addition, audit work during fiscal year 2011 noted significant weaknesses with several
aspects of EPA’s information security program. Appendix A summarizes the results from these
audit reports.
Inspector General                               2011
                                               Annual FISMA
                                                  Report
Section Report




             Environmental Protection Agency
Section 1: Risk Management
1.b.     The Agency has established and is maintaining a risk management program. However, the Agency needs to make significant
         improvements as noted below.
                                    Comments:      We limited our review to evaluating whether EPA fully developed Risk Management policies and procedures
                                                   compliant with NIST SP 800-37. While EPA developed Risk Assessment guidance, the Agency had not fully
                                                   developed a Risk Management Framework consistent with the latest NIST guidance. As such, we did not evaluate
                                                   all of the Risk Management areas within this section.
        1.b(1).    Risk Management policy is not fully developed.
                    Yes
        1.b(2).    Risk Management procedures are not fully developed, sufficiently detailed (SP 800-37, SP 800-39, SP 800-53).
                    Yes
        1.b(3).    Risk Management procedures are not consistently implemented in accordance with government policies (SP 800-37, SP
                   800-39, SP 800-53).
                    No
                                    Comments:      We did not evaluate this area.
        1.b(4).    A Comprehensive governance structure and Agency-wide risk management strategy has not been fully developed in
                   accordance with government policies (SP 800-37, SP 800-39, SP 800-53).
                    No
                                    Comments:      We did not evaluate this area.
        1.b(5).    Risks from a mission and business process perspective are not addressed (SP 800-37, SP 800-39, SP 800-53).
                    No
                                    Comments:      We did not evaluate this area.
        1.b(6).    Information systems are not properly categorized (FIPS 199/SP 800-60).
                    No
        1.b(7).    Appropriately tailored baseline security controls are not applied to information systems in accordance with government
                   policies (FIPS 200/SP 800-53).
                    No
        1.b(8).    Risk assessments are not conducted in accordance with government policies (SP 800-30).
OIG Report - Annual 2011                                                                                                                                    Page 1 of 11
                                                                           For Official Use Only
Section 1: Risk Management
                    No
                                     Comments:      We did not evaluate this area.
        1.b(9).    Security control baselines are not appropriately tailored to individual information systems in accordance with government
                   policies (SP 800-53).
                    No
        1.b(10).   The communication of information system specific risks, mission/business specific risks and organizational level (strategic)
                   risks to appropriate levels of the organization is not in accordance with government policies.
                    No
                                     Comments:      We did not evaluate this area.
        1.b(11).   The process to assess security control effectiveness is not in accordance with government policies (SP800-53A).
                    No
        1.b(12).   The process to determine risk to Agency operations, Agency assets, or individuals, or to authorize information systems to
                   operate is not in accordance with government policies (SP 800-37).
                    No
                                     Comments:      We did not evaluate this area.
        1.b(13).   The process to continuously monitor changes to information systems that may necessitate reassessment of control
                   effectiveness is not in accordance with government policies (SP 800-37).
                    No
                                     Comments:      We did not evaluate this area.
        1.b(14).   Security plan is not in accordance with government policies (SP 800-18, SP 800-37).
                    No
                                     Comments:      We did not evaluate this area.
        1.b(15).   Security assessment report is not in accordance with government policies (SP 800-53A, SP 800-37).
                    No
                                     Comments:      We did not evaluate this area.
        1.b(16).   Accreditation boundaries for Agency information systems are not defined in accordance with government policies.

OIG Report - Annual 2011                                                                                                                          Page 2 of 11
                                                                            For Official Use Only
Section 1: Risk Management
                    No
                                     Comments:      We did not evaluate this area.
        1.b(17).   Other
                    No

Section 2: Configuration Management
2.a.     The Agency has established and is maintaining a security configuration management program that is consistent with FISMA
         requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities may have been identified by the
         OIG, the program includes the following attributes:
        2.a(1).    Documented policies and procedures for configuration management.
                    Yes
        2.a(2).    Standard baseline configurations defined.
                    Yes
        2.a(3).    Assessing for compliance with baseline configurations.
                    Yes
        2.a(4).    Process for timely, as specified in Agency policy or standards, remediation of scan result deviations.
                    Yes
        2.a(5).    For Windows-based components, FDCC/USGCB secure configuration settings fully implemented and any deviations from
                   FDCC/USGCB baseline settings fully documented.
                    Yes
        2.a(6).    Documented proposed or actual changes to hardware and software configurations.
                    Yes
        2.a(7).    Process for timely and secure installation of software patches.
                    Yes

Section 3: Incident Response and Reporting
3a.      The Agency has established and is maintaining an incident response and reporting program that is consistent with FISMA
OIG Report - Annual 2011                                                                                                                Page 3 of 11
                                                                            For Official Use Only
Section 3: Incident Response and Reporting
         requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities may have been identified by the
         OIG, the program includes the following attributes:
        3a(1).     Documented policies and procedures for detecting, responding to and reporting incidents.
                    Yes
        3a(2).     Comprehensive analysis, validation and documentation of incidents.
                    Yes
        3a(3).     When applicable, reports to US-CERT within established timeframes.
                    Yes
        3a(4).     When applicable, reports to law enforcement within established timeframes.
                    Yes
        3a(5).     Responds to and resolves incidents in a timely manner, as specified in Agency policy or standards, to minimize further
                   damage.
                    Yes
        3a(6).     Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
                    Yes
        3a(7).     Is capable of correlating incidents.
                    Yes
                                     Comments:       We are reviewing this area in a separate audit. We will issue our results in the final report during the third quarter of
                                                     FY 2012.

Section 4: Security Training
4.a.     The Agency has established and is maintaining a security training program that is consistent with FISMA requirements, OMB policy,
         and applicable NIST guidelines. Although improvement opportunities may have been identified by the OIG, the program includes the
         following attributes:
        4.a(1).    Documented policies and procedures for security awareness training.
                    Yes


OIG Report - Annual 2011                                                                                                                                                 Page 4 of 11
                                                                             For Official Use Only
Section 4: Security Training
        4.a(2).    Documented policies and procedures for specialized training for users with significant information security responsibilities.
                    Yes
        4.a(3).    Security training content based on the organization and roles, as specified in Agency policy or standards.
                    Yes
        4.a(4).    Identification and tracking of the status of security awareness training for all personnel (including employees, contractors, and
                   other Agency users) with access privileges that require security awareness training.
                    Yes
        4.a(5).    Identification and tracking of the status of specialized training for all personnel (including employees, contractors, and other
                   Agency users) with significant information security responsibilities that require specialized training.
                    Yes

Section 5: POA&M
5.b.     The Agency has established and is maintaining a POA&M program that tracks and remediates known information security
         weaknesses. However, the Agency needs to make significant improvements as noted below.
        5.b(1).    POA&M Policy is not fully developed.
                    No
        5.b(2).    POA&M procedures are not fully developed and sufficiently detailed.
                    No
        5.b(3).    POA&M procedures are not consistently implemented in accordance with government policies.
                    No
        5.b(4).    POA&Ms do not include security weaknesses discovered during assessments of security controls and requiring remediation.
                   (OMB M-04-25).
                    Yes
                                     Comments:      While EPA creates POA&Ms during annual self-assessments, the Agency does not consistently create POA&Ms
                                                    for security weaknesses discovered during internal reviews.
        5.b(5).    Remediation actions do not sufficiently address weaknesses in accordance with government policies (NIST SP 800-53, Rev.
                   3, Sect. 3.4 Monitoring Security Controls).

OIG Report - Annual 2011                                                                                                                                 Page 5 of 11
                                                                           For Official Use Only
Section 5: POA&M
                    No
        5.b(6).    Source of security weaknesses are not tracked (OMB M-04-25).
                    No
        5.b(7).    Security weaknesses are not appropriately prioritized (OMB M-04-25).
                    No
        5.b(8).    Milestone dates are not adhered to. (OMB M-04-25).
                    No
        5.b(9).    Initial target remediation dates are frequently missed (OMB M-04-25).
                    Yes
                                    Comments:      20% of EPA's FY 2011 POA&Ms missed the initial target remediation date by 30 or more days.
        5.b(10).   POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3, Control CA-5, and OMB M-04-25).
                    No
        5.b(11).   Costs associated with remediating weaknesses are not identified (NIST SP 800-53, Rev. 3, Control PM-3 and OMB
                   M-04-25).
                    No
        5.b(12).   Agency CIO does not track and review POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5, and OMB M-04-25).
                    No
        5.b(13).   Other
                    No

Section 6: Remote Access Management
6.a.     The Agency has established and is maintaining a remote access program that is consistent with FISMA requirements, OMB policy,
         and applicable NIST guidelines. Although improvement opportunities may have been identified by the OIG, the program includes the
         following attributes:
        6.a(1).    Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote access.
                    Yes

OIG Report - Annual 2011                                                                                                                        Page 6 of 11
                                                                         For Official Use Only
Section 6: Remote Access Management
        6.a(2).    Protects against unauthorized connections or subversion of authorized connections.
                    Yes
        6.a(3).    Users are uniquely identified and authenticated for all access.
                    Yes
        6.a(4).    If applicable, multi-factor authentication is required for remote access.
                    Yes
        6.a(5).    Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic authentication, including
                   strength mechanisms.
                    Yes
        6.a(6).    Defines and implements encryption requirements for information transmitted across public networks.
                    Yes
        6.a(7).    Remote access sessions, in accordance to OMB M-07-16, are timed-out after 30 minutes of inactivity after which
                   re-authentication are required.
                    Yes

Section 7: Identity and Access Management
7.a.     The Agency has established and is maintaining an identity and access management program that is consistent with FISMA
         requirements, OMB policy, and applicable NIST guidelines and identifies users and network devices. Although improvement
         opportunities may have been identified by the OIG, the program includes the following attributes:
                                     Comments:      We did not evaluate this section because we are reviewing this area in a separate audit. We will issue our results in
                                                    the final report during the second quarter of FY 2012.
        7.a(1).    Documented policies and procedures for account and identity management.
                    Yes
        7.a(2).    Identifies all users, including federal employees, contractors, and others who access Agency systems.
                    Yes
        7.a(3).    Identifies when special access requirements (e.g., multi-factor authentication) are necessary.


OIG Report - Annual 2011                                                                                                                                             Page 7 of 11
                                                                            For Official Use Only
Section 7: Identity and Access Management
                    Yes
        7.a(4).    If multi-factor authentication is in use, it is linked to the Agency's PIV program where appropriate.
                    Yes
        7.a(5).    Ensures that the users are granted access based on needs and separation of duties principles.
                    Yes
        7.a(6).    Identifies devices that are attached to the network and distinguishes these devices from users.
                    Yes
        7.a(7).    Ensures that accounts are terminated or deactivated once access is no longer required.
                    Yes
        7.a(8).    Identifies and controls use of shared accounts.
                    Yes

Section 8: Continuous Monitoring Management
8.b.     The Agency has established an enterprise-wide continuous monitoring program that assesses the security state of information
         systems. However, the Agency needs to make significant improvements as noted below.
        8.b(1).    Continuous monitoring policy is not fully developed (NIST 800-53: CA-7).
                    No
        8.b(2).    Continuous monitoring procedures are not fully developed (NIST 800-53: CA-7).
                    Yes
        8.b(3).    Continuous monitoring procedures are not consistently implemented (NIST 800-53: CA-7; 800-37 Rev 1, Appendix G).
                    No
                                     Comments:      We did not evaluate this area.
        8.b(4).    Strategy or plan has not been fully developed for enterprise-wide continuous monitoring (NIST 800-37 Rev 1, Appendix G).
                    Yes
        8.b(5).    Ongoing assessments of security controls (system-specific, hybrid, and common) have not been performed (NIST 800-53,

OIG Report - Annual 2011                                                                                                                      Page 8 of 11
                                                                            For Official Use Only
Section 8: Continuous Monitoring Management
                   NIST 800-53A).
                    No
        8.b(6).    The following were not provided to the authorizing official or other key system officials: security status reports covering
                   continuous monitoring results, updates to security plans, security assessment reports, and POA&Ms (NIST 800-53, NIST
                   800-53A).
                    No
        8.b(7).    Other
                    No

Section 9: Contingency Planning
9.a.     The Agency established and is maintaining an enterprise-wide business continuity/disaster recovery program that is consistent with
         FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities may have been identified by
         the OIG, the program includes the following attributes:
        9.a(1).    Documented business continuity and disaster recovery policy providing the authority and guidance necessary to reduce the
                   impact of a disruptive event or disaster.
                    Yes
        9.a(2).    The Agency has performed an overall Business Impact Analysis (BIA).
                    Yes
        9.a(3).    Development and documentation of division, component, and IT infrastructure recovery strategies, plans and procedures.
                    Yes
        9.a(4).    Testing of system specific contingency plans.
                    Yes
        9.a(5).    The documented business continuity and disaster recovery plans are in place and can be implemented when necessary.
                    Yes
        9.a(6).    Development of test, training, and exercise (TT&E) programs.
                    Yes
        9.a(7).    Performance of regular ongoing testing or exercising of business continuity/disaster recovery plans to determine effectiveness
OIG Report - Annual 2011                                                                                                                            Page 9 of 11
                                                                           For Official Use Only
Section 9: Contingency Planning
                   and to maintain current plans.
                    Yes

Section 10: Contractor Systems
10.a.    The Agency has established and maintains a program to oversee systems operated on its behalf by contractors or other entities,
         including Agency systems and services residing in the cloud external to the Agency. Although improvement opportunities may have
         been identified by the OIG, the program includes the following attributes:
        10.a(1).   Documented policies and procedures for information security oversight of systems operated on the Agency's behalf by
                   contractors or other entities, including Agency systems and services residing in public cloud.
                    Yes
        10.a(2).   The Agency obtains sufficient assurance that security controls of such systems and services are effectively implemented and
                   comply with federal and Agency guidelines.
                    Yes
        10.a(3).   A complete inventory of systems operated on the Agency's behalf by contractors or other entities, including Agency systems
                   and services residing in public cloud.
                    Yes
        10.a(4).   The inventory identifies interfaces between these systems and Agency-operated systems.
                    Yes
        10.a(5).   The Agency requires appropriate agreements (e.g., MOUs, Interconnection Security Agreements, contracts, etc.) for
                   interfaces between these systems and those that it owns and operates.
                    Yes
        10.a(6).   The inventory of contractor systems is updated at least annually.
                    Yes
        10.a(7).   Systems that are owned or operated by contractors or entities, including Agency systems and services residing in public cloud,
                   are compliant with FISMA requirements, OMB policy, and applicable NIST guidelines.
                    Yes

Section 11: Security Capital Planning
11.a.    The Agency has established and maintains a security capital planning and investment program for information security. Although
OIG Report - Annual 2011                                                                                                                            Page 10 of 11
                                                                          For Official Use Only
Section 11: Security Capital Planning
         improvement opportunities may have been identified by the OIG, the program includes the following attributes:
        11.a(1).   Documented policies and procedures to address information security in the capital planning and investment control process.
                    Yes
        11.a(2).   Includes information security requirements as part of the capital planning and investment process.
                    Yes
        11.a(3).   Establishes a discrete line item for information security in organizational programming and documentation.
                    Yes
        11.a(4).   Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required.
                    Yes
        11.a(5).   Ensures that information security resources are available for expenditure as planned.
                    Yes




OIG Report - Annual 2011                                                                                                                        Page 11 of 11
                                                                         For Official Use Only
                                                                                Appendix A

            Summary of Significant Fiscal Year 2011
                  Security Control Audits
During fiscal year 2011, the EPA OIG published a number of audit reports on EPA’s information
technology security program and information systems. The following summarizes key findings:

1. Region 9 Technical and Computer Room Security Vulnerabilities Increase Risk
   to EPA's Network, Report No. 11-P-0725, September 30, 2011

   The OIG’s physical and environmental control review of the Region 9 computer room found
   that sufficient protections were not in place to safeguard critical information technology
   assets and associated data from the risk of damage and/or loss.

2. EPA Has Taken Steps to Address Cyber Threats but Key Actions Remain
   Incomplete, Report No. 11-P-0277, June 23, 2011

   In association with an OIG investigation of Advanced Persistent Threats (APTs), the Agency
   reported that over 7,800 of its systems had communicated with known hostile Internet
   protocol addresses. These Agency systems potentially could have been compromised by
   APTs due to these communications. We issued previous reports and made recommendations
   that could help the Agency strengthen cyber security practices for combating APTs.
   However, some of those recommendations remain unimplemented, and we continue to find
   and report on similar weaknesses at other EPA locations. The Agency generally agreed with
   all the recommendations.

3. Improvements Needed in EPA’s Network Traffic Management Practices,
   Report No. 11-P-0159, March 14, 2011

   The Office of Environmental Information (OEI) does not have consistent, repeatable
   intrusion detection system monitoring practices in place, which inhibits EPA’s ability to
   monitor unusual network activity and thus protect Agency systems and associated data. OEI
   has not documented a methodology to aid in making decisions about potentially unusual
   network traffic and does not consistently conduct management oversight of contractor
   performance and reporting. In addition, key federally required security documents for EPA’s
   Wide Area Network were not complete or accurate. The Agency agreed with our
   recommendations.

4. EPA Could Improve RCRAInfo Data Quality and System Development,
   Report No. 11-P-0096, February 7, 2011

   Resource Conservation and Recovery Act Information System (RCRAInfo) data that track
   hazardous waste handlers and the shipment and receipt of hazardous waste contain errors and
   are missing source documentation. These conditions call into question the quality and
   reliability of data within the RCRAInfo system, as well as any resulting reporting. RCRAInfo
   system owners did not follow the prescribed System Life Cycle Management testing
   procedures to test and validate the updated software and updated system. Further, field work
   found instances of test data comingled with production data. Overall, the above conditions
   were caused by not having specific data quality procedures for RCRAInfo that align with the
   Agency’s data quality policy, not following the System Life Cycle Management procedures
   for system development, and not adequately communicating with the states regarding the
   RCRAInfo test environment. As required by the EPA quality policy, EPA organizations must
   document and implement a quality program for environmental data that are intended for
   external distribution.

5. Improvements Needed in EPA’s Efforts to Replace Its Core Financial System,
   Report No. 11-P-0019, November 29, 2010

   The Office of the Chief Financial Officer’s (OCFO’s) management control processes do not
   ensure compliance with EPA’s Systems Life Cycle Management policies and procedures.
   EPA’s system development policies and procedures identify specific activities and
   documents required during a system development project. However, OCFO’s internal control
   environment does not enforce these policies and procedures. OCFO proceeded with the
   design subphase of the system project without obtaining executive management approval of
   the updated system requirements or developing and obtaining the required approval of test
   plans to ensure the system will meet Agency needs. Further, OCFO did not predetermine the
   acceptable product acceptance test script failure percentages to be used as the basis for
   management’s go/no-go decision to proceed with using the evaluated product. The Agency
   agreed with all recommendations.

6. Technical Vulnerability Assessments

   As part of the fiscal year 2011 FISMA audit, the OIG issued a series of network vulnerability
   reports to EPA offices to address high-risk and medium-risk vulnerabilities. The OIG met
   with EPA information security personnel to discuss the findings. If not resolved, these
   vulnerabilities could expose EPA’s assets to unauthorized access and potentially harm the
   Agency’s network. The first report listed below also appears as number 1 above, because it
   reported on our review of Region 9’s physical and environmental controls as well as the
   results of our technical vulnerability assessment.

         Region 9 Technical and Computer Room Security Vulnerabilities Increase Risk to
          EPA’s Network, Report No. 11-P-0725, September 30, 2011
         Results of Technical Vulnerability Assessment: EPA’s Directory Service System
          Authentication and Authorization Servers, Report No. 11-P-0597, September 9, 2011
         Results of Technical Network Vulnerability Assessment: EPA’s National Health &
          Environment Effect Research Laboratory, Western Ecology Division, Report No. 11-
          P-0429, August 3, 2011
                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Director, Office of Technology Operations and Planning, Office of Environmental Information
Senior Agency Information Security Officer, Office of Environmental Information
Director, Technology and Information Security Staff, Office of Environmental Information
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information
